      DEPARTMENT OF HEALTH & HUMAN SERVICES                              Office of Inspector General

                                                                          Washington, D.C. 20201




June 24, 2010

TO:             Yvette Sanchez Fuentes
                Director, Office of Head Start
                Administration for Children and Families


FROM:           /George M. Reeb/
                Acting Deputy Inspector General for Audit Services


SUBJECT:        Review of West Haven Community House Association, Inc.’s, Compliance With
                Health and Safety Regulations for Head Start Programs (A-01-10-02500)


Attached, for your information, is an advance copy of our final report on West Haven
Community House Association, Inc.’s (the Grantee), compliance with Head Start health and
safety regulations. We will issue this report to the Grantee within 5 business days. The
Administration for Children and Families, Office of Head Start, requested this review.

If you have any questions or comments about this report, please do not hesitate to call me, or your
staff may contact Lori S. Pilcher, Assistant Inspector General for Grants, Internal Activities, and
Information Technology Audits, at (202) 619-1175 or through email at Lori.Pilcher@oig.hhs.gov
or Michael J. Armstrong, Regional Inspector General for Audit Services, Region I, at
(617) 565-2689 or through email at Michael.Armstrong@oig.hhs.gov. Please refer to report
number A-01-10-02500.


Attachment
     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General

                                                                          Office of Audit Services, Region I
                                                                          John F. Kennedy Federal Building
                                                                          Room 2425
                                                                          Boston, MA 02203

June 25, 2010

Report Number: A-01-10-02500

Ms. Patricia Stevens
Executive Director
West Haven Community House Association, Inc.
227 Elm Street
West Haven, CT 06516

Dear Ms. Stevens:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of West Haven Community House Association, Inc.’s,
Compliance With Health and Safety Regulations for Head Start Programs. We will forward a
copy of this report to the HHS action official noted on the following page for review and any
action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact George Nedder, Audit Manager, at (617) 565-3463 or through email at
George.Nedder@oig.hhs.gov. Please refer to report number A-01-10-02500 in all
correspondence.

                                             Sincerely,



                                             /Michael J. Armstrong/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Ms. Patricia Stevens


Direct Reply to HHS Action Official:

Mr. Rick Borseti
Grants Management Officer
Administration for Children and Families
U.S. Department of Health & Human Services
JFK Federal Building, Room 2000
Boston, MA 02203
   Department of Health & Human Services
              OFFICE OF
         INSPECTOR GENERAL




 REVIEW OF WEST HAVEN COMMUNITY
     HOUSE ASSOCIATION, INC.’S,
   COMPLIANCE WITH HEALTH AND
SAFETY REGULATIONS FOR HEAD START
            PROGRAMS



                         Daniel R. Levinson
                          Inspector General

                             June 2010
                           A-01-10-02500
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Within the U.S. Department of Health & Human Services, the Administration for Children and
Families, Office of Head Start (OHS), administers the Head Start and Early Head Start programs.
We refer collectively to both programs as the Head Start program. In fiscal year (FY) 2009,
Congress appropriated $7.1 billion to fund the program’s regular operations. The American
Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act), provides an additional
$2.1 billion for the Head Start program during FYs 2009 and 2010.

West Haven Community House Association, Inc. (the Grantee), a private, nonprofit organization,
provides Head Start services to preschoolers and their families through a comprehensive program
designed to promote physical, mental, social, and emotional development. The Grantee’s facility
in West Haven, Connecticut, has eight Head Start classrooms located in three buildings. For
program year 2009, OHS awarded approximately $1.25 million in Federal Head Start funds to
the Grantee to provide services to 147 children. On July 2, 2009, the Grantee also received
$83,645 in Recovery Act funding.

OBJECTIVE

Our objective was to determine whether the Grantee complied with applicable Federal and State
regulations on ensuring the health and safety of children in its care.

SUMMARY OF FINDINGS

The Grantee did not fully comply with Federal and State regulations on ensuring the health and
safety of children in its care. Specifically, as of December 2009:

   •   The files on 58 of the Grantee’s 59 Head Start employees lacked required documentation
       on fingerprint cards, child abuse and neglect registry checks, criminal record checks,
       and/or signed employee declarations. The file on the one remaining employee had all
       required documentation.

   •   The Grantee did not meet all Federal Head Start and State regulations on protecting
       children from unsafe materials and equipment.

   •   The Grantee did not always provide a secure environment for the children in its care.

These deficiencies occurred because the Grantee did not have adequate procedures or did not
consistently follow procedures that were in place to ensure that it complied with Federal and State
health and safety regulations. The Grantee’s failure to comply with these regulations jeopardized
the health and safety of children in its care.




                                                 i
RECOMMENDATIONS

We recommend that the Grantee develop and consistently follow procedures to ensure that:

   •   all employee files contain (1) evidence of completed fingerprint cards (for employees
       hired after September 1, 2000), (2) evidence of a check of the State child abuse and
       neglect registry, (3) documentation of a criminal background check, and (4) an employee-
       signed declaration;

   •   unsafe materials are stored in locked areas out of the reach of children and other unsafe
       conditions are addressed; and

   •   all buildings are secure.

GRANTEE COMMENTS

In its written comments on our draft report, the Grantee described its completed and ongoing
actions to address the deficiencies that we identified. However, the Grantee noted that the
windows in the Biondi Building and Dorsi Wing were protected by safety glass and were in
compliance with Connecticut’s Department of Public Health licensing requirement.

The Grantee’s comments are included in their entirety as Appendix B.

OFFICE OF INSPECTOR GENERAL RESPONSE

Based on our discussion with a Grantee staff member, the windows in question are opened and
used for ventilation when children are present. Because these windows are fewer than 36 inches
from the floor, State regulations specify that they must be protected. We maintain that the safety
glass does not provide adequate protection when the windows are open.




                                                ii
                                                  TABLE OF CONTENTS

                                                                                                                              Page

INTRODUCTION................................................................................................................1

          BACKGROUND ......................................................................................................1
              Federal Head Start Program ...........................................................................1
              Federal Regulations for Head Start Grantees.................................................1
              West Haven Community House Association, Inc..........................................1
              Office of Inspector General Audits ................................................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY .....................................................2
               Objective ........................................................................................................2
               Scope .............................................................................................................2
               Methodology ..................................................................................................2

FINDINGS AND RECOMMENDATIONS ......................................................................3

          EMPLOYEE BACKGROUND CHECKS ................................................................3
              Federal and State Regulations........................................................................3
              Grantee’s Compliance With Federal and State Employment
                Regulations .................................................................................................4

          MATERIAL AND EQUIPMENT SAFETY .............................................................5
              Federal and State Regulations........................................................................5
              Grantee’s Compliance With Material and Equipment Safety
                Regulations .................................................................................................5

          FACILITY SECURITY .............................................................................................6
               Federal and State Regulations........................................................................6
               Grantee’s Compliance With Facility Security Regulations ...........................7

          INADEQUATE OR INCONSISTENTLY FOLLOWED PROCEDURES ..............7

          RECOMMENDATIONS ..........................................................................................7

          GRANTEE COMMENTS .........................................................................................7

          OFFICE OF INSPECTOR GENERAL RESPONSE ................................................8

APPENDIXES

          A: LACK OF COMPLIANCE WITH MATERIAL SAFETY AND FACILITY
              SECURITY REGULATIONS

          B: GRANTEE COMMENTS



                                                                    iii
                                        INTRODUCTION

BACKGROUND

Federal Head Start Program

Title VI of the Omnibus Budget Reconciliation Act of 1981 established Head Start as a Federal
discretionary grant program. The major program objectives include promoting school readiness
and enhancing the social and cognitive development of low-income children by providing health,
educational, nutritional, and social services. In 1994, the Head Start program was expanded to
establish Early Head Start, which serves children from birth to 3 years of age. We refer
collectively to both programs as the Head Start program.

Within the U.S. Department of Health & Human Services, the Administration for Children and
Families (ACF), Office of Head Start (OHS), administers the Head Start program. In fiscal year
(FY) 2009, Congress appropriated $7.1 billion to fund Head Start’s regular operations.

The American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
provides an additional $2.1 billion for the Head Start program during FYs 2009 and 2010. These
funds are intended for activities such as expanding enrollment, funding cost-of-living wage
increases for grantees, upgrading centers and classrooms, and bolstering training and technical
assistance.

Federal Regulations for Head Start Grantees

Pursuant to Federal Head Start regulations (45 CFR § 1304.53(a)(7)), Head Start grantees must
provide for the maintenance, repair, safety, and security of all Head Start facilities. These
regulations also specify that facilities used by Head Start grantees for regularly scheduled,
center-based activities must comply with State and local licensing regulations. Alternatively, if
State and local licensing standards are less stringent than the Head Start regulations or if no State
licensing standards are applicable, grantees must ensure that their facilities comply with the Head
Start Program Performance Standards related to health and safety (45 CFR § 1306.30(c)).

West Haven Community House Association, Inc.

West Haven Community House Association, Inc. (the Grantee), a private, nonprofit, State-
licensed organization, provides Head Start services to preschoolers and their families through a
comprehensive program designed to promote physical, mental, social, and emotional
development. The Grantee’s facility in West Haven, Connecticut, has eight Head Start
classrooms located in three buildings: the Jerry Biondi Building, the Pauline F. Lang Building,
and the Helen Dorsi Wing. For program year 2009, OHS awarded approximately $1.25 million
in Federal Head Start funds to the Grantee to provide services to 147 children. On July 2, 2009,
the Grantee also received $83,645 in Recovery Act funding.




                                                 1
Office of Inspector General Audits

This audit is one of a series of audits that address the health and safety of children who attend
Head Start programs. We are conducting these audits in response to the $2.1 billion in Recovery
Act funds appropriated for the Head Start program in FYs 2009 and 2010.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the Grantee complied with applicable Federal and State
regulations on ensuring the health and safety of children in its care.

Scope

Our review covered the Grantee’s employee records and facilities as of December 2009. To gain
an understanding of the Grantee’s operations, we conducted a limited review of the Grantee’s
internal controls as they related to our audit objective.

We performed our fieldwork from December 2 through December 8, 2009, at the Grantee’s
facility in West Haven, Connecticut.

Methodology

To accomplish our objective, we:

       •   selected the Grantee based on prior risk analyses and discussions with ACF officials;

       •   reviewed Federal and State laws, regulations, and policies related to Federal grant awards
           and the Head Start program;

       •   reviewed the Grantee’s Head Start grant applications and current grant award documents;

       •   reviewed the Grantee’s files on all 59 current Head Start employees; 1

       •   reviewed the Grantee’s licenses and documentation of fire inspections;

       •   visited the Grantee’s Head Start classrooms; and

       •   discussed our preliminary findings with Grantee and ACF officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions

1
    The 59 current employees were partially or fully funded by the Head Start grant award.


                                                           2
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATIONS

The Grantee did not fully comply with Federal and State regulations on ensuring the health and
safety of children in its care. Specifically, as of December 2009:

   •   The files on 58 of the Grantee’s 59 Head Start employees lacked required documentation
       on fingerprint cards, child abuse and neglect registry checks, criminal record checks,
       and/or signed employee declarations. The file on the one remaining employee had all
       required documentation.

   •   The Grantee did not meet all Federal Head Start and State regulations on protecting
       children from unsafe materials and equipment.

   •   The Grantee did not always provide a secure environment for the children in its care.

These deficiencies occurred because the Grantee did not have adequate procedures or did not
consistently follow procedures that were in place to ensure that it complied with Federal and State
health and safety regulations. The Grantee’s failure to comply with these regulations jeopardized
the health and safety of children in its care.

EMPLOYEE BACKGROUND CHECKS

Federal and State Regulations

Pursuant to section 648A(g) of the Head Start Act (42 U.S.C. § 9843A), a Head Start grantee
may not hire an individual on a permanent or nonpermanent basis until it obtains (1) a State,
tribal, or Federal criminal record check covering all jurisdictions where the grantee provides
Head Start services to children; (2) a State, tribal, or Federal criminal record check as required by
the law of the jurisdiction where the grantee provides Head Start services; or (3) a criminal
record check as otherwise required by Federal law.

Federal Head Start regulations (45 CFR § 1301.31(b)(2)) state that grantees must require each
current and prospective Head Start employee to sign a declaration that lists:

   •   all pending and prior criminal arrests and charges related to child sexual abuse and their
       disposition,

   •   convictions related to other forms of child abuse and neglect, and

   •   all convictions for violent crimes.




                                                  3
In Connecticut, child daycare facilities must comply with sections 19a-79-1a through 19a-79-13
of the State of Connecticut Regulation of Department of Public Health Concerning Child Day
Care Centers and Group Day Care Homes (State regulations). Section 19a-79-4a(b) states that
each prospective employee’s file must include (1) completed State and Federal fingerprint cards
for criminal record checks and (2) a completed form approved by the Department of Public
Health and submitted for a check of the State child abuse registry. The Connecticut Department
of Public Health (the childcare licensing agency) stated that childcare facilities should keep proof
of submission on file, such as a copy of the completed fingerprint cards. However, according to
officials from the childcare licensing agency, childcare facilities are not required to keep
evidence of fingerprint cards on file for employees hired before September 1, 2000.

Grantee’s Compliance With Federal and State Employment Regulations

Our review of the Grantee’s files on all 59 current employees found that the Grantee did not
always comply with Federal and State employment regulations. Specifically, as of December
2009, 58 employee files lacked required documentation as follows:

   •   The files on 30 employees (16 teachers, 8 teacher aides/assistants, 2 education managers,
       1 kitchen assistant, 1 health manager, 1 administrative assistant, and 1 family worker)
       hired after September 1, 2000, contained no evidence of completed fingerprint cards.

   •   The files on 10 employees (1 assistant finance director, 1 bookkeeper, 1 director of
       development and communications, 1 administrative services director, 1 human resource
       administrator, 1 assistant executive director of finance, and 4 custodians) contained no
       evidence of an employee-signed declaration.

   •   The files on five employees (three teacher aides, one chef, and one health worker)
       contained no evidence of completed fingerprint cards or a child abuse and neglect check.

   •   The files on five employees (one teacher aide, one family worker, one family support
       person, one mental health manager, and one office manager) contained no evidence of a
       child abuse and neglect check.

   •   The files on four employees (one executive director, one office manager, one
       receptionist, and one facilities manager) contained no evidence of a criminal records
       check or an employee-signed declaration.

   •   The files on four employees (two teachers, one family services manager, and one Head
       Start director) contained no evidence of a child abuse and neglect check or an employee-
       signed declaration.

By not ensuring that all employees who supervised or had routine unsupervised contact with
children met all employment regulations, the Grantee potentially jeopardized the safety of
children in its care.




                                                 4
MATERIAL AND EQUIPMENT SAFETY

Federal and State Regulations

Pursuant to Federal Head Start regulations (45 CFR § 1304.53(a)(7)), grantees must provide for
the maintenance, repair, and safety of all Head Start facilities, materials, and equipment. The
regulations (45 CFR § 1304.53(a)(10)) state that grantees must conduct a safety inspection at
least annually to ensure that each facility’s space, light, ventilation, heat, and other physical
arrangements are consistent with the health, safety, and developmental needs of children.
Grantees must ensure that approved, working fire extinguishers are readily available and that
indoor and outdoor premises are cleaned daily and kept free of undesirable and hazardous
materials and conditions.

Pursuant to 45 CFR § 1306.30(c), grantees also must ensure that Head Start facilities comply
with any State and local licensing requirements. If these licensing standards are less
comprehensive or less stringent than the Head Start regulations or if no State or local licensing
standards are applicable (as in the case of nonlicensed facilities), grantees must ensure that their
facilities comply with the Head Start Program Performance Standards related to health and safety
found in 45 CFR § 1304.53(a).

State regulations (sections 19a-79-6a and 7a) specify that child daycare facilities must protect
children from unsafe materials and equipment by, among other things:

   •   storing potentially hazardous substances in a separate locked area;

   •   prohibiting space heaters on the premises;

   •   maintaining the building in a good state of repair;

   •   keeping the playground free from glass, debris, holes, and other hazards; and

   •   covering protruding nuts, bolts, and screws.

State regulations (section 19a-79-6a(a)(9)) require that the kitchen in a child daycare center be
separated by a door or a gate from the rooms used by children to prevent the children from
entering the kitchen except under supervision. Section 19a-79-7a(d)(5)) specifies that facilities
must protect glass doors, windows, or mirrors if they are fewer than 36 inches from the floor or
surface on which a child stands and are located in a room accessible to children.

Grantee’s Compliance With Material and Equipment Safety Regulations

The three buildings at the Grantee’s childcare facility did not meet all Federal Head Start and
State health and safety regulations on protecting children from unsafe materials and equipment.
Our visits to the Grantee’s facility on December 2 and 3, 2009, found the following deficiencies:




                                                  5
   •   The maintenance tags on the fire extinguishers in two classrooms, one in the Biondi
       Building and one in the Dorsi Wing, had expired (Appendix A, Photograph 1).

   •   Broken fencing in two separate areas between the play area and parking lot was held
       together with duct tape in one area and a wire tie in the other. The chief executive officer
       and Head Start director acknowledged the condition of the fence but stated that they did
       not have the funding to repair the fence immediately (Appendix A, Photograph 2).

   •   A hallway accessible to children in the lower level of the Biondi Building had exposed
       wiring and chipping paint, and an unlocked closet in the hallway contained toxic
       chemicals (Appendix A, Photograph 3).

   •   Toxic chemicals such as cleaning supplies were accessible to children in an unlocked
       closet in a classroom in the Biondi Building (Appendix A, Photograph 4).

   •   An unlocked teacher’s lounge area in a classroom in the Lang Building contained a space
       heater (Appendix A, Photograph 5).

   •   A trash can on the playground had a protruding, uncovered bolt that could injure a child
       (Appendix A, Photograph 6).

   •   The kitchen door was left open and unattended when staff left the kitchen to collect food
       carts from classrooms. The kitchen is located in the Dorsi Wing directly across from the
       children’s coatrack (Appendix A, Photograph 7).

   •   In the Biondi Building and the Dorsi Wing, classroom windows fewer than 36 inches
       from the floor were not protected.

We reported these deficiencies to the chief executive officer and the Head Start director and
received assurance that the Grantee would correct them. By not ensuring that all facilities were
kept free from unsafe materials and equipment, the Grantee jeopardized the safety of children in
its care.

FACILITY SECURITY

Federal and State Regulations

Pursuant to 45 CFR § 1304.53(a)(7), grantees must provide for the security of all Head Start
facilities.

State regulations (section 19a-79-7a(c)(2)) state that the Grantee must establish a maintenance
program that ensures that the interior, exterior, and grounds of the building are kept clean and
orderly and free from health and safety hazards.




                                                 6
Grantee’s Compliance With Facility Security Regulations

Our visit to the Grantee’s facility on December 3, 2009, found that the facility did not meet all
Federal Head Start and State regulations on ensuring facility security. Specifically:

   •   The doors of all three buildings were unlocked during hours of operation, allowing
       unrestricted access to the buildings. We observed people entering the buildings
       throughout the day without any type of security check by the Grantee’s staff.

   •   Two gates (one at the Biondi Building and one at the Lang Building) were broken and
       could not be closed to prevent children from accessing the parking area.

We reported these security concerns to the chief executive officer and the Head Start director and
received assurance that the Grantee would address them. By not ensuring that the facility was secure,
the Grantee jeopardized the safety of children in its care.

INADEQUATE OR INCONSISTENTLY FOLLOWED PROCEDURES

These deficiencies occurred because the Grantee did not have adequate procedures or did not
consistently follow procedures that were in place to ensure that it complied with Federal and
State health and safety regulations.

RECOMMENDATIONS

We recommend that the Grantee develop and consistently follow procedures to ensure that:

   •   all employee files contain (1) evidence of completed fingerprint cards (for employees
       hired after September 1, 2000), (2) evidence of a check of the State child abuse and
       neglect registry, (3) documentation of a criminal background check, and (4) an employee-
       signed declaration;

   •   unsafe materials are stored in locked areas out of the reach of children and other unsafe
       conditions are addressed; and

   •   all buildings are secure.

GRANTEE COMMENTS

In its written comments on our draft report, the Grantee described its completed and ongoing
actions to address the deficiencies that we identified. However, the Grantee noted that the
windows in the Biondi Building and Dorsi Wing were protected by safety glass and were in
compliance with Connecticut’s Department of Public Health licensing requirement.

The Grantee’s comments are included in their entirety as Appendix B.




                                                 7
OFFICE OF INSPECTOR GENERAL RESPONSE

Based on our discussion with a Grantee staff member, the windows in question are opened and
used for ventilation when children are present. Because these windows are fewer than 36 inches
from the floor, State regulations specify that they must be protected. We maintain that the safety
glass does not provide adequate protection when the windows are open.




                                                8
APPENDIXES
                                                                       Page 1 of 4



APPENDIX A: LACK OF COMPLIANCE WITH MATERIAL AND EQUIPMENT
                     SAFETY REGULATIONS




     Photograph 1 – Taken in a Dorsi Wing classroom on 12/3/09 showing a
     fire extinguisher with an expired maintenance tag dated March 2008.




     Photograph 2 – Taken on the playground on 12/3/09 showing a broken
     fence gate held together by a wire tie.
                                                                   Page 2 of 4




Photograph 3 – Taken in the Biondi Building on 12/3/09 showing exposed
wiring in the lower level hallway accessible to children.




  Photograph 4 – Taken in the Biondi Building on 12/2/09 showing
  toxic chemicals stored in an unlocked closet in a classroom.
                                                                   Page 3 of 4




Photograph 5 – Taken in the Lang Building on 12/3/09 showing a space
heater in an unlocked teacher’s lounge area in a classroom.




Photograph 6 – Taken on the playground on 12/3/09 showing an uncovered
bolt protruding from a trash can.
                                                                    Page 4 of 4




Photograph 7 – Taken in the Dorsi Wing on 12/2/09 showing an open door
that allowed children unrestricted access to the kitchen.
                               APPENDIX B: GRANTEE COMMENTS
                                                                                                  Page 1 of 5



                                       WEST HAVEN COMMUNITY HOUSE ASSOCIATION, INC.
                                         227 Elm Street, West Haven, CT 06516 (203) 934-5221 FAX: (203) 937-9052

Patricia W. Stevens, Executive Director

April 29, 2010

Michael J. Armstrong
Regional Inspector General for Audit Services
Department of Heath & Human Services
Office of Audit Services, Region I
John F. Kennedy Federal Building
Room 2425
Boston, MA 02203

RE: report number A-01-10-02500

Dear Mr. Armstrong:

I am writing in response to the above referenced audit report for the West Haven Community House Head
Start program. We have reviewed the report and wish to submit the attached comments to each area of
concern.

Please be assured that our Board of Directors supports and encourages all levels of monitoring, auditing
and review believing that all constructive feedback is positive and helpful to ensure safe and quality
programming.

However, in our opinion, the majority of the findings regarding compliance with Federal and State
Employment Regulations are not of a level that actually jeopardizes the safety and health of the Head
Start children but rather a result of different interpretations of employee classification (i.e. agency vs.
Head Start) and how to show evidence of fingerprint checks. We are routinely checked and monitored by
our State of Connecticut Department of Public Health Licensing agents, NAEYC accreditation and
Federal Head Start review teams who have consistently considered us in compliance with all regulations
and Head Start standards.

In our attached response, I explain in greater detail any facility or security findings. We take very seriously
the safety and security of our facilities and regularly have inspections by our custodial staff, Facilities
Manager and Board of Directors. We are aware that with the size, age and configuration of our buildings,
that occasionally items may be in need of repair or upgraded. It is not acceptable, yet not unexpected; to
have some facility issues waiting funding to be fixed properly. It is our expectation that emergency and
temporary repairs be completed with the safety of the children as the first priority. We have short and
long term plans to address all of these conditions and feel that because of the quality and quantity of our
staff, we can adequately supervise children to prevent any safety concerns until more permanent repairs
and/or enhancements can be made.

We thank you for the opportunity to respond to this report. We hope that you will consider our comments
in your final review and report.

Sincerely,




Patricia Stevens
Executive Director
                                                                                        Page 2 of 5



Responses to deficiencies found in the West Haven Community House
OIG Audit of December, 2009

I.       DOCMENTATION IN EMPLOYEE FILES

     •   The files of 58 of the Grantee’s 59 Head Start employees lacked required
         documentation on fingerprint cards, child abuse and neglect registry checks,
         criminal record checks, and/or signed employee declarations. The file on the one
         remaining employee had all required documentation.

It must be stated that prior to this review, the West Haven Community House, a multi-service
human service agency, providing Head Start services, as well as, services to adults with
developmental disabilities, children, youth and pregnant and parenting teens only considered
employees solely working directly in the Head Start program to be considered “Head
Start employees.” Consequently, 13 of the 59 employees noted above and considered Head
Start employees in this review are agency administrative staff and custodians. Prior to this
review only 45 of the 59 were considered Head Start employees.

Since agency administrative staff and custodians were not considered Head Start employees,
they were not subjected to the Head Start and Federal and State employment regulations,
section 648 A (g) of the Head Start Act (42 U.S.C. § 9843A) and Federal Head Start
Regulations (45 CFR § 1301.31 (b) (2)) or sections 19a-79-1a through 19a-79-13 of the State of
Connecticut Regulation of Department of Public Health Concerning Child Day Care Centers.
Including the additional 13 employees misrepresents the actual citation above.

That noted the West Haven Community House began performing criminal background checks in
2002. At that time, we were advised by our attorney to file all completed background checks
separate from an employee’s individual personnel file.

During this review, all agency employees hired since July 2002 had criminal background
checks completed. These forms were not generally included in employee’s individual personnel
file but rather filed together in notebooks in a secured location. Employees hired prior to July
2002 did not have criminal background checks completed.
     • Since this review we have merged all of these completed background checks into every
         employee’s individual personnel file.
     • All employees hired prior to July 2002 and still employed have now had background
         checks completed and filed in their individual personnel file.
     • We have reviewed all of the current “Head Start” employee files to ensure that the
         declaration forms are now included in their files.
     • Prior to this review we were not aware that we were required to copy fingerprint cards
         and keep them in the employee’s file. We do file copies of the child abuse and neglect
         check forms in the individual employee’s file. If any were missing, they would most likely
         have been for Head Start administrative staff who have been employed prior to 2000
         and, thus to our understanding, not previously required to have in the file.
     • We have kept copies of checks and purchase orders showing that the fingerprints were
         submitted. We submit our fingerprint cards and child abuse and neglect check forms to
         the State of Connecticut Department of Public Health and do not receive any
         confirmation regarding the submission and/or outcome unless something is found in the
         check. This is a system problem originating with the State of Connecticut over which we
         have no control.
     • In the future, we will keep copies of the completed fingerprint cards and child abuse and
         neglect forms in the Head Start employee’s individual personnel file as documentation
                                                                                         Page 3 of 5


          that we have complied with this regulation. Also, as staff that have been hired prior to
          2000 leave our employ and our replaced, we will perform fingerprint checks and child
          abuse and neglect checks on the new hires, including administrative employees who
          were previously not required to have these checks.
      •   Agency administrative staff and building staff that do not work directly with children are
          not required to have fingerprint checks or child abuse and neglect checks. We have had
          administrative and building staff complete declaration forms and, as noted previously,
          have all had criminal background checks completed.

II.       MATERIAL AND EQUIPMENT SAFETY

      •   The maintenance tags on the fire extinguishers in two classrooms, one in the
          Biondi building and one in the Dorsi wing, had expired.

      We have a service that annually inspects all of our fire extinguishers in March. Three spare
      extinguishers had been serviced but not put in place of these two with expired inspection
      tags. This has since been corrected and we have instituted monthly fire extinguisher
      inspection checks by our custodial staff. These checks are documented and presented to
      our Facility Manager who also makes random inspections.

      •   Broken fencing in two separate areas between the play area and parking lot was
          held together with duct tape in one area and a wire in the other.

      We regularly inspect our fences for safety and make emergency repairs when necessary.
      Our children are constantly supervised when in the playgrounds to ensure that they remain
      within the fenced playgrounds. The fences also have safety latches which keep the children
      safely inside but also can need costly repair. The Building and Grounds Committee of the
      Board of Directors has made our fence/gate repairs a priority and are raising the dollars to
      fix the priority areas to ensure for safety. The most critical fencing and 3 gates have been
      fixed.

      •   A hallway accessible to children in the lower level of the Biondi Building had
          exposed wiring and chipping paint, and an unlocked closet in the hallway
          contained toxic chemicals.

      The area with the exposed wiring is outside of our mechanical room and is for our phone
      and security equipment. It can not be moved or covered. We have separated that area with
      temporary barriers but must leave it accessible to equipment maintenance staff and the fire
      department. We have prohibited staff from bringing children through that area and
      redirected parents with children away from using that exit.

      Since this review, we have contracted with a facilities service company, Cintas, to provide
      our cleaning systems and other custodial supplies. This has eliminated the need for any
      cleaning or toxic chemical to be stored in a classroom closet. However, it is important to
      note that all of our closets are locked and during this review, the closet door that was
      unlocked with cleaning supplies was open between classes and the only child in the room
      was a child waiting for a late parent. There were two staff in the room, one supervising and
      sitting with the child and the other was setting up for the next class.

      •   An unlocked teacher’s lounge area in a classroom in the Lang Building contained
          a space heater.
                                                                                   Page 4 of 5


All space heaters have been removed from any office space. It is to be noted that no space
heaters were in any classroom or area used by children.

•   A trash can on the playground had a protruding, uncovered bolt that could injure
    a child.

The bolt has been removed. It was previously used when the trash can was fastened to the
fence to prevent theft and vandalism.

•   The kitchen door was left open and unattended when staff left the kitchen to
    collect food from carts from classrooms.

New Kitchen staff have been instructed in the importance of keeping the door closed at all
times and locked when unoccupied and staff are delivering meals.

•   In the Biondi Building and the Dorsi wing, classroom windows fewer than 36
    inches from the floor were not protected.

We believe that these windows are protected and in compliance with the State of
Connecticut Department of Public Health Licensing. The windows are composed of safety
glass and in this week’s licensing visit the licensing inspector accepted them.

III. FACILITY SECURITY

•   The doors of all three buildings were unlocked during hours of operation, allowing
    unrestricted access to the buildings. We observed people entering the buildings
    throughout the day without any type of security check by the grantee’s staff.

The West Haven Community House has a commitment to the security of our clients, children
and staff. Over the past 5 years, we have obtained grants to increase the security
measures in our facilities. Our Elm Street facility is comprised of three separate buildings
with many access doors. Classrooms are located in areas with direct access to outside for
fire safety. We have most doors in our main building locked at all times. Our rear exterior
door is locked at all times with a card reader system and only authorized staff with a card
may enter. Our front main door must be open daily for the many visitors, clients, and
community individuals that have business with us on a regular basis. The reception area is
staffed at all times that we are open and visitors check in at reception. The lower level of
this building has classroom doors directly to the outside which are locked. The lower level
hallway entrance is equipped at this time to be locked at all times with a camera and
intercom system which allows us to control entry. At the time of the review that system was
not operational but is now. This is the most restricted access that can be provided in this
building.

Our facility, which is comprised of three buildings-some old and some new, is not easily
conducive to restricting access to all doors and buildings at all times. We are not funded to
maintain security checks/guards at all doors. We do have custodians on staff at all times
who are responsible for patrolling our facilities and routinely walk through all buildings,
parking lots and playgrounds. All classrooms are equipped with intercoms, phones, and
paging systems if they require immediate assistance.

The two rear buildings, with 2 classrooms per building, currently have entrance doors that
are situated in a manner that it is extremely difficult and expensive to install the type of
system that is now being utilized in the front building which houses the remaining 5 classes.
                                                                                  Page 5 of 5


We have a plan in place to add these two buildings’ exterior and hallway doors to the
system but we require more than $32,000 to complete the basic plan. Until funding for that
phase is obtained, we will lock the classroom doors to prevent open access to the
classrooms but we are unable to keep the other exterior building doors locked at all times to
restrict access to the building.

•   Two gates (one at the Biondi building and one at the Lang Building) were broken
    and could not be closed to prevent children from accessing the parking area.

As noted in the section about fences, we are in the process of repairing the broken fences
and gates. Due to funding constraints, we have prioritized the most critical areas to be
completed. It is important to note that our Head Start children are supervised at all times
while in our program, with a minimum of 2 staff per 15 children, and in most cases, 3 staff
per 15. There are additional staff supervising while children are in the playgrounds. We
believe that the risk of children accessing the parking lot is minimal due to the temporary
emergency repairs and the significant supervision that is provided.

.
